No. 20-6626
IN THE

Supreme Court of the United States
IHAB MASALMANI,

Petitioner,
v.
STATE OF MICHIGAN,

Respondent.
On Petition for Writ of Certiorari
to the Michigan Supreme Court
PROOF OF SERVICE
I hereby certify and declare that, on April 1, 2021, I served a copy of
RESPONDENT’S BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI, along with this PROOF OF SERVICE, on the Petitioner’s Counsel of
Record, Tina N. Olson, by depositing an envelope containing those documents, with
ﬁrst-class postage prepaid and affixed thereto, in the United States mail, which was
properly addressed to the State Appellate Defender Office at 200 North Washington,
Suite 250, in Lansing, Michigan 48913, as required by Supreme Court Rule 29.
I further swear and declare under penalty of perjury that the foregoing is true
and correct.
Respectfully Submitted,
By:
Executed: April 2, 2021

Joshua D. Abbott

JOSHUA D. ABBOTT

Counsel of Record for Respondent
Macomb County Prosecutor’s Office
1 South Main Street—4th Floor
Mount Clemens, Michigan 48043
Phone: (586) 469-5350

